HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Two States During August 2003,"
(A-05-06-00057)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid
Payments for Services Provided to Beneficiaries With Concurrent Eligibility in
Two States During August 2003," (A-05-06-00057)
May 8, 2008
Complete
Text of Report is available in PDF format (471 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For August 2003, we estimate that States Medicaid agencies
paid approximately $2 million on behalf of beneficiaries who should not have
been eligible because of their Medicaid eligibility in another State.  The
payments were made on behalf of these beneficiaries because the States agencies
did not share all available Medicaid eligibility information.  Medicaid
eligibility in each State is based on residency.  If a resident of one State
subsequently establishes residency in another State, the beneficiarys Medicaid
eligibility in the previous State should end.  The States agencies must
redetermine the eligibility of Medicaid beneficiaries, with respect to
circumstances that may change, at least every 12 months.
Based on the results of this audit, we plan to select specific State pairs for
detailed audits of payments for services provided to Medicaid-eligible
beneficiaries.
We recommended that the Centers for Medicare and Medicaid Services (CMS) share
the results of our audit with all States to (1) emphasize the need to ensure
that beneficiary eligibility changes are identified and appropriate action is
taken and (2) encourage States to identify opportunities to use existing
eligibility data to minimize concurrent Medicaid eligibility periods.
CMS concurred with the recommendations.